No.

IN THE

Aupheme Gout of the United btates

OCTOBER TERM, 2019

JOHNATHAN KEEN,
Petitioner,
Vv.
UNITED STATES OF AMERICA,
Respondent.

PROOF OF SERVICE

I, NOEL G. LAWRENCE do declare that on this date, 7" of August, 2020, pursuant to Supreme Court Rules 29.3
and 29.4, I have served the attached MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS and
PETITION FOR WRIT OF CERTIORARI on each party to the above proceeding, or that party's counsel, and on
every other person required to be served by depositing an envelope containing the above documents in the United
States mail properly addressed to each of them and with first-class postage prepaid.

The names and addresses of those served are as follows:

Hon. Noel Francisco

Solicitor General of the United States
Department of Justice- Room 5614
950 Pennsylvania Avenue, N. W.
Washington, D. C. 20530-0001

AFFIANT t

 

24

 

|
